No. 19-1272
IN THE

Suprnne Tratrt tile ttitrb States
THOMAS CHRISTOPHER RETZLAFF,

Petitioner,
V.
JASON LEE VAN DYKE,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT
MOTION FOR LEAVE TO FILE AND BRIEF
AMICI CURIAE FOR 16 MEDIA
ORGANIZATIONS AND ADVOCACY GROUPS
IN SUPPORT OF PETITIONER
THOMAS C. ARTHUR
Counsel of Record
EMORY LAW SCHOOL SUPREME
COURT ADVOCACY PROGRAM
1301 Clifton Road
Atlanta, GA 30322
(404) 727-5792
lawtca@emory.edu

1
MOTION FOR LEAVE TO FILE BRIEF AMICI
CURIAE FOR 16 MEDIA ORGANIZATIONS
AND ADVOCACY GROUPS IN SUPPORT OF
PETITIONER
Pursuant to this Court's Rule 37.2, sixteen
media organizations and advocacy groups respectfully
file this motion for leave of the Court to file the
attached amici curiae brief in support of the
Petitioner.
All counsels of record for the parties received
timely notice of the intention to file this brief. On June
26, 2020, Counsel for Petitioner filed a letter of
blanket consent for timely filed amici curiae briefs in
support of petitioner, respondent, or neither party.
Respondent, serving as his own Counsel, declined to
give consent to file the amici curiae brief. While he did
not give a reason for the declination, he stated that he
"respectfully decline [d] to consent to any amicus brief
in this case."
These sixteen media organizations and
advocacy groups express their concern over the Fifth
Circuit's holding that the Texas Citizen's
Participation Act does not apply to diversity cases in
federal court. The Fifth Circuit's holding will chill the
exercise of the First Amendment rights of press and
media organizations, which can have a devastating
effect on free speech and public discourse.
The sixteen media organizations and advocacy
groups are The Center for Investigative Reporting;

2
Dow Jones & Company, Inc.; The E.W. Scripps
Company; The First Amendment Coalition; Fox
Television Stations, LLC; The Georgia Press
Association; The Kansas Association 'of Broadcasters;
MPA — Association of Magazine Media; National
Federation of Press Women; National Newspaper
Association; The National Press Foundation; The
National Press Photographers Association; The News
Media Alliance; Nexstar Media Group, Inc.; The Radio
Television Digital News Association; and Sinclair
Broadcast Group, Inc. These media organizations and
advocacy groups respectfully assert their legitimate,
substantial, and compelling interests in protecting the
media and press against meritless lawsuits designed
to stifle free speech and public participation.
For these reasons, these sixteen media
organizations and advocacy groups respectfully
request that this Court grant this Motion for Leave to
File the attached amici curiae brief in support of the
Petitioner.
Respectfully Submitted,
THOMAS C. ARTHUR
Counsel of Record
EMORY LAW SCHOOL SUPREME
COURT ADVOCACY PROGRAM
1301 Clifton Road
Atlanta, GA 30322
(404) 727-5792
lawtca@emory.edu
Counsel for Amici Curiae

TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES
INTERESTS OF AMICI CURIAE
INTRODUCTION AND SUMMARY OF ARGUMENT
ARGUMENT
I.
Anti-SLAPP statutes are necessary to
protect First Amendment rights
SLAPP lawsuits chill free speech and
infringe on First Amendment rights
of the press and the public
States have enacted anti-SLAPP
legislation to uphold their compelling
interest in protecting their citizens'
First Amendment rights
Enacted anti-SLAPP laws effectively
protect First Amendment rights
II.
State anti-SLAPP laws should be
applied in federal courts
The current circuit split places
uneven burdens on defendants
Failure to apply state anti-SLAPP
laws in federal court promotes forum
shopping and the inequitable
administration of laws in violation of
Erie's aims
Failure to resolve the circuit split
erodes First Amendment rights and
harms media organizations
nationwide
CONCLUSION

ii
1
3
5
5

6

11
13
15
16

19

22
24

11

TABLE OF AUTHORITIES
CASES

3M Co. v. Boulter
842 F. Supp. 2d 85 (D.D.C. 2012)

18, 19

Abbas v. Foreign Policy Grp., LLC,
78 F. 3d 1328 (D.C. Cir. 2015)

16, 17, 20

Adelson v. Harris,
774 F.3d 803 (2d Cir. 2014)

17

Better Bus. Bureau of Metro. Dallas v. BH DFW, Inc.,
402 S.W.3d 299 (Tex. Ct. App. 2013)
14
Carbone v. Cable News Network, Inc.,
No. 1:16-cv-1720-ODE, 2017 U.S. Dist.
LEXIS 216286 (N.D. Ga. Feb. 14, 2017)
Carbone v. Cable News Network, Inc.,
910 F.3d 1345 (11th Cir. 2018)
Doe No. 1 v. Burke,
91 A.3d 1031 (D.C. App. 2014)

20
16, 21
20

Erie Railroad Co. v. Tompkins,
304 U.S. 64 (1938)

4, 15

Gardner v. Martino,
563 F.3d 981 (9th Cir. 2009)

18, 19

Garrison v. Louisiana,
379 U.S. 64 (1964)

22

Godin v. Machiasport Sch. Dep't Bd. of Dirs.,
831 F. Supp. 2d 380 (D. Me. 2011)

18

Godin v. Schencks,
629 F.3d 79 (1st Cir. 2010)

17

111

Guar. Trust Co. v. York,
326 U.S. 99 (1945)

15

Hanna v. Plumer,
380 U.S. 460 (1965)

4, 21

Henry v. Lake Charles Am. Press. LLC,
566 F.3d 164 (5th Cir. 2007)

8, 14

In re Gawker Media LLC,
571 B.R. 612 (Bankr. S.D.N.Y. 2017)

17

Klocke v. Watson,
936 F.3d 240 (5th Cir. 2019)

4, 14, 17

Lampo Grp., LLC v. Paffrath,
2019 U.S. Dist. LEXIS 122523 (M.D. Tenn.
July 23, 2019)

16.

Los Lobos Renewable Power, LLC v. AmeriCulture,
17
Inc., 885 F.3d 659 (10th Cir. 2018)
Main v. Royall,
348 S.W.3d 381 (Tex. App. 2011)

12

Murray v. Chagrin Valley Publ. Co.,
25 N.E. 3d 1111 (Ohio Ct. App. 2014)

9, 10

New York Times Co. v. Sullivan,
376 U.S. 254 (1964)

8

Paterno v. Super. Ct.,
163 Cal. App. 4th 1342 (Cal. Ct. App. 2008)

13

Shady Grove Orthopedic Assocs., P.A. v. Allstate
Ins. Co., 559 U.S. 393 (2010)

16

United States ex rel. Newsham v. Lockheed
Missiles & Space Co., 190 F.3d 963
(9th Cir. 1999)

14, 17

iv
Van Dyke v. Retzlaff, No. 18-40710,
781 F. App'x. 368 (5th Cir. 2019)

3

Walker v. Armco Steel Corp.,
446 U.S. 740 (1980)

16

Wynn v. Associated Press,
No. A-18-772715-C, 2018 Nev. Dist. LEXIS
1265 (8th Jud. Dist. of Nev., Clark County
Aug. 23, 2018)

13

STATUTES AND CONSTITUTIONS
Cal. Civ. Proc. Code § 425.16(a)

17, 20

D.C. Code § 16-5502

19

Fla. Stat. § 768.295

21

Ga. Code Ann. § 9-11-11.1

21

Nev. Rev. Stat. § 41.660(3)(a)

13

Or. Rev. Stat. § 31.150(2)

19

Tex. Civ. Prac. & Rem. Code
§§ 27.001 et. seq

3, 11, 13, 17

TEX. CONST. art. I, § 8

13

OTHER MATERIALS
Timothy Besley et al., Mass Media and
Political Accountability, in THE RIGHT TO
TELL 45 (Roumeen Islam et al. eds., 2002)

24

Julie Bosman, How the Collapse of Local News Is
Causing a 'National Crisis', N.Y . TIMES
(Nov. 20, 2019, 12:13 PM),
https://tinyurl.com/rfpcmhw

23

V

Jerome I. Braun, Increasing SLAPP Protection:
Unburdening the Right of Petition in
California, 32 U.C. DAVIS L. REV. 965
(1999)
5, 24
Small Newspaper in Iowa Wins a Libel Suit, but
Legal Costs May Force It to Close,
FIRST AMEND. WATCH (Oct. 10, 2019),
https://tinyurl.com/yc6waqjn

22

Meagan Flynn, A Small-Town Iowa Newspaper
Brought Down a Cop. His Failed Lawsuit Has
Now Put the Paper in Financial Peril, WASH.
POST (Oct. 10, 2019),
https://tinyurl.com/yy4kmb83

9

Shannon Hartzler, Protecting Informed Public
Participation: Anti-SLAPP Law and the
Media Defendant,
41 VAL. U.L. REV. 1235 (2007)

7

Clara Henrickson, Local Journalism in Crisis:
Why America Must Revive its Local
Newsrooms, BROOKINGS INST. (Nov. 12, 2019),
23
https://tinyurl.com/y8nmlcax
Kate Irby, Devin Nunes' Lawsuit over Iowa
Farm Story Called a 'Fishing Expedition'
by Esquire Magazine, THE SACRAMENTO BEE
(Apr. 24, 2020, 4:51 PM),
https://tinyurl.com/y6u4ft2a
Nicole Ligon, Protecting Local News Outlets
from Fatal Legal Expenses, 95 N.Y.U. L.
REV. ONLINE (forthcoming 2020),
https://tinyurl.com/y8r773eu

19

6, 8, 9

vi
Kelly McBride, McClatchy Could Hire 10 Reporters
for the Money It Will Spend to Get Devin
Nunes Lawsuit Dismissed, POYNTER
(Apr. 11, 2019), https://tinyurl.com/y3ffexld
7
Local News in a Digital Age, PEW RES. CTR.
(Mar. 5, 2015), https://tinyurl.com/yazwrbeg

23

Laura L. Prather & Justice J. Bland, The
Developing Jurisprudence of the Texas
Citizens Participation Act, 50 TEX.
TECH. L. REV. 633 (2018)
7, 8, 11, 12
George W. Pring & Penelope Canan, "Strategic
Lawsuits Against Public Participation"
("SLAPPs"): An Introduction for Bench,
Bar and Bystanders, 12 U. BRIDGEPORT L.
REV. 937 (1992)

5

Kristen Rasmussen, SLAPP Stick: Fighting
Frivolou,4 Lawsuits Against Journalists,
REPS. COMM. FOR FREEDOM OF THE PRESS

(Summer 2011), https://tinyurl.com/y868da4f

7

Dena M. Richardson, Power Play: An
Examination of Texas's Anti-SLAPP
Statute and Its Protection of Free Speech
Through Accelerated Dismissal,
6, 7, 11, 12, 13, 20
45 ST. MARY'S L.J. 245 (2014)
Katelyn E. Saner, Getting Slapp-Ed In
Federal Court: Applying State Anti-Slapp
Special Motions to Dismiss in Federal
Court After "Shady Grove", 63 DUKE L.J.
781 (2013)

17, 22

vii
U.S. Dep't Homeland Security, Advisory
Memorandum on Identification of Essential
Critical Infrastructure Workers During
COVID-19 Response (Mar. 28, 2020)

23

1
INTERESTS OF AMICI CURIAE'
Amici are media organizations and advocacy
groups with an interest in protecting the First
Amendment rights of freedom of the press. Amici have
an interest in ensuring that journalists are not sued
by plaintiffs employing meritless claims in an attempt
to stifle free speech. Some of the amici have been
forced to defend against these meritless claims
previously and/or fear that they may have to defend
against future meritless claims in federal courts if the
Fifth Circuit precedent is not reversed. Other amici
advocate for protections for members of the press and
other citizens whose First Amendment rights will be
harmed if anti-SLAPP laws are not applicable in
federal courts.
Many of the amici filing this brief filed an amici
curiae brief in support of Petitioner on the merits of
the case before the United States Court of Appeals for
the Fifth Circuit. This brief reiterates the concerns of
these organizations that not allowing media
defendants the protections afforded by anti-SLAPP
statutes in federal courts will chill speech.

Pursuant to Sup. Ct. R. 37.6, amici curiae affirm that no counsel
for a party has written this brief in whole or in part, and that no
person or entity, other than amici curiae, its members, or its
counsel, have made a monetary contribution to the preparation
or submission of this brief. Further, pursuant to Sup. Ct. R.
37.2(a), amici curiae have timely notified the counsel of record of
their intent to file an amicus brief in support of Petitioner.
Petitioner granted consent to file the brief, while Respondent
denied consent.

2
Amici are The Center for Investigative
Reporting; Dow Jones & Company, Inc.; The E.W.
Scripps Company; The First Amendment Coalition;
Fox Television Stations, LLC; The Georgia Press
Association; The Kansas Association of Broadcasters;
MPA — Association of Magazine Media; National
Federation of Press Women; National Newspaper
Association; The National Press Foundation; The
National Press Photographers Association; The News
Media Alliance; Nexstar Media Group, Inc.; The Radio
Television Digital News Association; and Sinclair
Broadcast Group, Inc.

3
INTRODUCTION AND SUMMARY OF THE
ARGUMENT
Freedom of the press is at the heart of
democracy, which requires the public be well informed
by a news media that is able to speak freely and
without fear of retaliation. A recent increase in
frivolous litigation aimed at encumbering media
organizations with burdensome costs rather than
winning on the merits threatens to chill the exercise
of First Amendment rights. Although these "Strategic
Litigation Against Public Participation" ("SLAPP")
lawsuits lack merit, they can have a devastating effect
on free speech and public discourse.
Over the past three decades, a majority of states
have enacted anti-SLAPP statutes, which aim to
protect citizens and organizations who speak on
matters of public concern from retaliatory lawsuits.
When a lawsuit is brought with the intention of
inhibiting a citizen's free speech rights, anti-SLAPP
laws protect those defendants from burdensome
litigation by providing an avenue for rapid dismissal
of the case. Such laws also discourage meritless
lawsuits through fee-shifting provisions in favor of
defendants.
The Texas Citizen's Participation Act ("TCPA")
was enacted in 2011 with bipartisan support. Tex. Civ.
Prac. & Rem. Code Ann. § 27.003. Although the
purpose of the TCPA is to protect substantive rights of
Texas citizens, the Fifth Circuit has held that the
"'TCPA does not apply to diversity cases in federal
court."' Van Dyke v. Retzlaff, No. 18-40710, 781 F.

4
App'x 368, 368-69 (5th Cir. Oct. 22, 2019) (quoting
Klocke v. Watson, 936 F.3d 240, 242 (5th Cir. 2019)).
In contrast to the First, Second, and Ninth Circuits,
the Fifth Circuit has determined the TCPA is a
fundamentally procedural rule that conflicts with the
Federal Rules of Civil Procedure. Klocke, 936 F.3d at
247. Although federal procedural rules supersede
conflicting state procedural law in federal diversity
cases, according to this Court's precedent, a federal
court must apply the substantive laws of the state in
which it sits. Hanna v. Plumer, 380 U.S. 460, 465
(1965); Erie Railroad Co. v. Tompkins, 304 U.S. 64
(1938).
Consequently, the crux of this case is whether
state anti-SLAPP statutes such as the TCPA are
primarily substantive or whether they designate
procedural rules that conflict with the Federal Rules
of Civil Procedure. In this brief, amici provide ample
support for the concept that anti-SLAPP statutes
should apply in federal courts because they are
substantive state laws that protect constitutional
rights.
First, states have enacted anti-SLAPP
legislation because of their compelling interest in
preventing meritless lawsuits from chilling free
speech. Such laws have proven to be effective at
protecting First Amendment rights without infringing
on the rights of plaintiffs to seek redress for true
injury. Second, failure to apply state anti-SLAPP laws
in federal courts will place uneven burdens on
defendants and promote ongoing forum shopping,
which erodes First Amendment rights nationwide.

5
Lack of protection from meritless lawsuits will harm
media organizations and have a particularly
devastating effect on local media.
Accordingly, amici urge this Court to grant
certiorari to immediately address this issue, resolve
the circuit split, and hold definitively that state antiSLAPP laws should be applied in federal diversity
cases.
ARGUMENT
I.

Anti-SLAPP statutes are necessary to
protect First Amendment rights.

SLAPP lawsuits stand counter to First
Amendment rights as a vexatious form of litigation.
By their very nature, this type of lawsuit threatens
First Amendment rights by "chill[ing] the right of free
expression and free access to government, a doublebarreled assault on the core values of our society."
Jerome I. Braun, Increasing SLAPP Protection:
Unburdening the Right of Petition in California, 32
U.C. DAVIS L. REV. 965, 971 (1999). SLAPP lawsuits
are intended to intimidate defendants with the burden
of litigation, thereby eroding First Amendment rights.
George W. Pring & Penelope Canan, "Strategic
Lawsuits Against Public Participation" ("SLAPPs'):
An Introduction for Bench, Bar and Bystanders, 12 U.
BRIDGEPORT L. REV. 937, 942 (1992). Scholars note
that in just a twenty-year period, "thousands have
been sued into silence" and the hundreds of thousands
more who know about SLAPP lawsuits will "never
again participate freely and confidently in the public

6
issues and governance of their town, state, or country."
Id. at 944. Thus, lawsuits intended to retaliate against
someone exercising their free speech rights not only
threaten the defendant through litigation costs and
financial hardship, they also seriously impact our
representative form of government by "chilling public
participation in public debate." Dena M. Richardson,
Power Play: An Examination of Texas's Anti-SLAPP
Statute and Its Protection of Free Speech Through
Accelerated Dismissal, 45 ST. MARY'S L.J. 245, 253
(2014).
Because SLAPP lawsuits chill free speech,
many states have expressed their compelling interest
in protecting the rights of their citizens under their
state constitutions and under the First Amendment by
enacting anti-SLAPP legislation. Such state laws have
proven to be effective. Anti-SLAPP laws are beneficial
because they deter plaintiffs from bringing a SLAPP
lawsuit and they help to ensure no• media organization
"will suffocate from the costs of defending itself for
doing the important and honest work it has set out to
do at the hands of a party that sought to suppress
newsworthy information." Nicole Ligon, Protecting
Local News Outlets from Fatal Legal Expenses, 95
N.Y.U. L. REV. ONLINE (forthcoming 2020)
(manuscript at 14), https://tinyurl.com/y8r773eu.
A. SLAPP lawsuits chill free speech and
infringe on First Amendment rights of
the press and the public.
SLAPP lawsuits are filed with the "precise
tactical intent" to silence opposing viewpoints by

7
initiating financially burdensome and meritless
litigation. Richardson, supra, at 247. Although
frequently disguised as claims for defamation, SLAPP
lawsuits are meritless by definition and the vast
majority would fail if litigated fully. Id.; see Kristen
Rasmussen, SLAPP Stick: Fighting Frivolous
Lawsuits Against Journalists, REPS. Comm. FOR
FREEDOM OF THE PRESS 1, 2 (Summer
2011), http s://tinyurl.com/y868d a 4f.
"While
meritorious lawsuits seek to right a legal wrong, often
the primary motivation behind a SLAPP suit is to stop
lawful speech in a strategy to win a political or social
battle." Laura L. Prather & Justice J. Bland, The
Developing Jurisprudence of the Texas Citizens
Participation Act, 50 TEX. TECH L. REV. 633, 635
(2018). Plaintiffs use SLAPP lawsuits to financially
burden their critics, subjecting their adversaries to
lengthy and expensive litigation until they are forced
to abandon their defense. Id. at 636.
Because they have the potential to financially
devastate defendants, SLAPP lawsuits have a notable
chilling effect on free speech. Id. Defending
defamation lawsuits that get dismissed costs $500,000
on average, which is enough to bankrupt some
newspapers. Kelly McBride, McClatchy Could Hire 10
Reporters for the Money It Will Spend to Get Devin
Nunes Lawsuit Dismissed, POYNTER (Apr. 11, 2019),
https://tinyurl.com/y3ffexld. The cost of litigation
serves to punish defendants for perfectly legal speech,
and fear of similar retaliation deters them from
exercising their First Amendment rights to the full
extent in the future. See Shannon Hartzler, Protecting
Informed Public Participation: Anti-SLAPP Law and

8
the Media Defendant, 41 VAL. U.L. REV. 1235, 1240
(2007); see also Ligon, supra (manuscript at 10)
("When powerful individuals or entities find
'themselves in the heart of a newsworthy controversy,
initiating a lawsuit against one newspaper can
intimidate others from reporting on the same scandals
for fear of being similarly slapped with legal action.").
More than fifty years ago, this Court noted
defamation and libel cases may threaten to stifle free
speech. See New York Times Co. v. Sullivan, 376 U.S.
254, 279 (1964) ("[W]ould-be critics of official conduct
may be deterred from voicing their criticism, even
though it is believed to be true and even though it is
in fact true, because of doubt whether it can be proved
in court or fear of the expense of having to do so.").
Since Sullivan, courts have more frequently
recognized the chilling effect of abusive tort claims
and have tried to protect the exercise of speakers' First
Amendment rights. See Henry v. Lake Charles Am.
Press. LLC, 566 F.3d 164, 169 (5th Cir. 2007)
("Dismissal of these frivolous tort claims saves
defendants the cost and burden of trial and minimizes
the chilling effect of these lawsuits.").
Yet powerful individuals, including celebrities
and other public figures, can weaponize meritless
SLAPP lawsuits to "stifle unwanted publicity," even if
the statements made against them are true. Ligon,
supra (manuscript at 10). For example, before the
United States Doping Agency found cyclist Lance
Armstrong violated anti-doping rules, Armstrong filed
a string of lawsuits against those who accused him of
using performance-enhancing drugs. Prather &

9
Bland, supra, at 637. He later admitted to using
litigation as an intimidation tactic to "bully" the
defendants into silence. Id. at 638.
SLAPP lawsuits are especially effective when
targeting individuals or small, local media
organizations because they allow wealthy plaintiffs to
leverage their resources against an opponent with
relatively limited resources. For example, the Carroll
Times Herald, a family-owned newspaper in Iowa,
faced extreme financial hardship while defending
itself against a meritless defamation claim. Ligon,
supra (manuscript at 11). The newspaper had
published a story about a police officer's past sexual
relationships with teenage girls. Meagan Flynn, A
Small-Town Iowa Newspaper Brought Down a Cop.
His Failed Lawsuit Has Now Put the Paper in
Financial Peril, WASH. POST (Oct. 10, 2019),
https://tinyurl.com/yy4kmb83. The officer sued, but
the contents of the article were truthful, making his
defamation claim unfounded. Id. Although the Herald
eventually won its case on the merits, it spent
$140,000 in out-of-pocket expenses over the course of
the year-long litigation and was forced to turn to
crowdfunding to stay afloat. Id.
The Herald's struggle in the face of a meritless
lawsuit is not atypical; SLAPP lawsuits regularly
infringe on the First Amendment rights of the press.
In Ohio, another local newspaper faced similar
hardship after being sued for publishing an article and
cartoon that were critical of the plaintiff. See Murray
v. Chagrin Valley Publ. Co., 25 N.E.3d 1111, 1114
(Ohio Ct. App. 2018). Despite prevailing in court, the

10
Chagrin Valley Times suffered financially.2 While
testifying before an Ohio Senate Committee regarding
proposed anti-SLAPP legislation, Chagrin publisher
Kenneth Douthit stated the newspaper's insurance
carrier spent $300,000 in its defense, resulting in a
permanent increase in the cost of its libel insurance.
Hearing on S.B. 215 Before the S. Comm. on the
Judiciary, 2020 Leg. 133rd Sess. (Ohio Jan. 22, 2020).
Douthit also expressed the lawsuit took a toll on his
mental health and caused the departure of three
Chagrin reporters. Id. Finally, Douthit spoke directly
on the chilling effect of SLAPP lawsuits, saying "we
have delayed stories, rewritten stories, and passed on
stories if we believe that there may be future ligation."
Id. The experiences of the Carroll Times Herald and
Chagrin Valley Times demonstrate the power of
SLAPP lawsuits to intimidate and financially burden
defendants into silence, thereby infringing on their
First Amendment rights.

2 The court in Murray acknowledged the financial harm the
lawsuit caused to the Chagrin, Valley Times and blamed it on
Ohio's lack of anti-SLAPP legislation. See Murray, 25 N.E.3d at
1124 ("This case illustrates the need for Ohio to join the majority
of states in this country that have enacted statutes that provide
for quick relief from suits aimed at chilling protected speech.
These suits . . . can be devastating to individual defendants or
small news organizations and act to chill criticism and debate.").

11
B. States have enacted anti-SLAPP
legislation to uphold their compelling
interest in protecting their citizens'
First Amendment rights.
Recognizing the threat SLAPP lawsuits pose to
their citizens' free speech rights under the First
Amendment and many state constitutions, at least
thirty-two states, the District of Columbia, and the
territory of Guam have passed anti-SLAPP
legislation. Prather & Bland, supra, at 635. Texas
joined the majority of states in 2011 when the Texas
Legislature enacted the TCPA. Id. at 635-36. The
TCPA, like all anti-SLAPP statutes, creates a
mechanism for dismissing meritless lawsuits in the
early stages, before the defendants have incurred
significant litigation costs. Id. at 638; see Richardson,
at 261-62 ("Prior to the TCPA,
supra,
SLAPP defendants were forced to endure a lengthy
and pricey discovery process before filing no-evidence
and traditional motions for summary judgment to
throw out the SLAPP suit."). The TCPA also requires
courts to award successful defendants reasonable
attorney's fees and to issue sanctions against plaintiffs
who bring meritless lawsuits, making it a strong
deterrent against SLAPP lawsuits. Richardson, supra,
at 265.
The TCPA was enacted "to encourage and
safeguard the constitutional rights of persons to
petition, speak freely, associate freely, and otherwise
participate in government to the maximum extent
permitted by law." Tex. Civ. Prac. & Rem. Code Ann.
§ 27.002. The policy aim reflects the state's long-

12
recognized interest in protecting its citizens' First
Amendment rights as a cornerstone of democracy.
In addition to these broader values, several
SLAPP lawsuits within Texas directly inspired the
state legislature to enact the TCPA. Prather & Bland,
supra, at 637. The lawsuits filed by Lance Armstrong
were perhaps the most high-profile of these cases. See
id. Another case, Main v. Royall, raised serious
concerns about the use of SLAPP lawsuits to curtail
freedom of the press. 348 S.W.3d 381 (Tex. App. 2011);
See Prather & Bland, supra, at 638. In Main, a Dallas
developer sued both an author whose book criticized
the use of eminent domain to acquire land for private
development and a local Texas newspaper that
reviewed the book. Main, 348 S.W.3d at 384. Although
the Texas Court of Appeals eventually reversed the
trial court's denial of the defendants' motion for
summary judgment, both the author and the
newspaper sustained significant economic losses from
the litigation. Prather & Bland, supra, at 638.
Combined, these and similar cases gave the
Texas legislature concrete evidence its citizens' First
Amendment rights needed protection, which led to
broad, bipartisan support for an anti-SLAPP bill.
Prather & Bland, supra, at 638-39; see also
Richardson, supra, at 256 (attributing TCPA's
bipartisan support to "the framing of the legislation as
necessary to citizens who are participating in the free
exchange of ideas and to curtail abuses of the legal
system") (internal quotations and citation omitted).
Overall, in enacting anti-SLAPP legislation, Texas
affirmed its interest in protecting freedom of speech

13
and freedom of the press as guaranteed under the
First Amendment and the Texas Constitution. See
Tex. Civ. Prac. & Rem. Code Ann. § 27.002; TEX.
CONST. art. I, § 8.
C. Enacted anti-SLAPP laws effectively
protect First Amendment rights.
Defendants are much less likely to be burdened
by meritless lawsuits in states with anti-SLAPP
legislation because these laws provide relief from long
and costly litigation. For example, in California,
whose anti-SLAPP law "has been the model for broad
anti-SLAPP legislation," many defendants have been
protected from burdensome lawsuits. Richardson,
supra, at 255; see, e.g., Paterno v. Super. Ct. 163 Cal.
App. 4th 1342, 1357 (Cal. Ct. App. 2008) (granting
journalist's early motion to dismiss without discovery
when plaintiff failed to establish good cause for the
claim).
Similarly, Nevada's anti-SLAPP law provides
that a defendant may file a special motion to dismiss
upon showing "the claim is based upon a good faith
communication in furtherance of the right to petition
or the right to free speech in direct connection with an
issue of public concern." Nev. Rev. Stat. § 41.660(3)(a)
(2019); see, e.g., Wynn v. Associated Press, No. A-18772715-C, 2018 Nev. Dist. LEXIS 1265, at *2—*5 (8th
Jud. Dist. of Nev., Clark County Aug. 23, 2018)
(granting defendant's special motion to dismiss under
Nevada's anti-SLAPP statute).

14
Because the Ninth Circuit applies state antiSLAPP statutes in federal court, such laws enacted by
the California and Nevada legislatures are given
effect. See United States ex rel. Newsham v. Lockheed
Missiles & Space Co., 190 F.3d 963, 973 (9th Cir.
1999). If not for the Ninth Circuit's precedent,
plaintiffs could circumvent these otherwise effective
state laws by choosing to file in federal court. See infra
section II.B.
Texas's anti-SLAPP statute has also proven to
be effective at protecting First Amendment rights.
Since the TCPA was enacted, defendants have been
able to seek early dismissal of meritless lawsuits,
thereby avoiding the financial hardship caused by
lengthy litigation. See Better Bus. Bureau of Metro.
Dallas v. BH DFW, Inc., 402 S.W.3d 299, 305 (Tex. Ct.
App. 2013) ("The TCPA provides a means for a
defendant, early in the course of a lawsuit, to seek
dismissal of certain claims identified in the Act,
including a legal action based on, relating to, or in
response to a party's exercise of the right to free
speech.") (citations omitted).
Prior to Klocke and the present case, the Fifth
Circuit itself had effectively protected the First
Amendment rights of local press by applying state
anti- SLAPP laws. In Henry v. Lake Charles Am. Press,
LLC, the owner of an airport refueling operation filed
a defamation lawsuit against a local newspaper.• 566
F.3d at 168. The newspaper had published several
articles claiming the plaintiff had caused military
aircraft engines to fail by providing contaminated fuel.
Id. Applying Louisiana's anti-SLAPP statute, the

15
Fifth Circuit reversed the district court's denial of the
newspaper's special motion to dismiss. Id. While the
newspaper made a "prima facie showing that the
matter arises from an act in furtherance of his or her
right to free speech," the plaintiff did not meet his
burden of showing a probability of success on the
merits of his claim. Id. at 181-82. The holding
protected the only local daily newspaper in the town of
Lake Charles, Louisiana from the expense of litigating
a meritless lawsuit.
In summary, anti-SLAPP laws protect the
exercise of First Amendment rights by removing
litigation as a tool for plaintiffs to silence their critics.
Without the threat of expensive litigation as a
consequence of their speech, individuals and media
organizations are more likely to speak out on issues of
public concern.
II.

State anti-SLAPP laws should be applied
in federal courts.

This Court has established that a federal court
must apply the substantive law of the state in which
it sits. See Guar. Trust Co. v. York, 326 U.S. 99, 112
(1945) ("The source of substantive rights enforced by a
federal court under diversity jurisdiction . . . is the law
of the States."). Erie and its progeny dictate that
federal courts must apply state anti-SLAPP laws, and
this Court should grant certiorari to definitively
resolve this circuit split. Left unresolved, the circuit
split 1) places inconsistent burdens on defendants; 2)
promotes forum shopping for plaintiffs; and 3) erodes

16
First Amendment rights and harms media
organizations nationwide.
A. The current circuit split places
inconsistent burdens on defendants.
Application of a state's anti-SLAPP statute in
federal diversity cases depends on whether the statute
"answers the same question" as a provision of the
Federal Rules of Civil Procedure. Abbas v. Foreign
Policy Grp., LLC, 78 F.3d 1328, 1333 (D.C. Cir. 2015).
A state anti-SLAPP law would not apply if a federal
rule is "'sufficiently broad to control the issue before
the court' thereby leaving no room for the operation of
seemingly conflicting state law." Shady Grove
Orthopedic Assocs., P.A. v. Allstate Ins. Co., 559 U.S.
393, 421 (2010) (Stevens, J., concurring) (quoting
Walker v. Armco Steel Corp., 446 U.S. 740, 749-50
(1980)). On both sides of the issue, lower courts have
grappled with the application of Shady Grove. Circuits
have adopted different approaches and reached
differing conclusions on anti-SLAPP laws'
relationship to the Federal Rules of Civil Procedure,
leaving litigants with varied results across federal
courts nationwide. See Lampo Grp., LLC v. Paffrath,
No. 3:18 -cv-04102, 2019 U.S. Dist. LEXIS 122523, at
*3-4 (M.D. Tenn. July 23, 2019) (comparing cases with
contrasting holdings among various circuit courts).
The First, Second,3 and Ninth Circuits have
held federal courts must apply state anti- SLAPP
A split of authority exists within the Second Circuit on the
availability of anti-SLAPP laws in federal courts. Compare

3

17
statutes in federal diversity cases. See Adelson v.
Harris, 774 F.3d 803, 809 (2d Cir. 2014); Godin v.
Schencks, 629 F.3d 79, 91 (1st Cir. 2010); Newsham,
190 F.3d at 973. In contrast, the. Fifth, Tenth,
Eleventh, and District of Columbia Circuits rejected
application of state anti-SLAPP laws in federal
diversity cases. See Klocke, 936 F.3d at 242; Carbone
v. Cable News Network, Inc., 910 F.3d 1345, 1357
(11th Cir. 2018); Los Lobos Renewable Power, LLC v.
AmeriCulture, Inc., 885 F.3d 659, 673 (10th Cir. 2018);
Abbas, 783 F.3d at 1337. Practical implications follow
as most states' anti-SLAPP statutes operate to dismiss
a plaintiff's entire claim, creating a substantive
remedy for defendants. See, e.g., Tex. Civ. Prac. &
Rem. Code §§ 27.001 et. seq.; Cal. Civ. Proc. Code §
425.16(a). Put simply, the availability of anti-SLAPP
statutes in federal court could make the difference in
saving defendants from costly and time-consuming
litigation. Katelyn E. Saner, Getting Slapp-Ed In
Federal Court: Applying State Anti-Slapp Special
Motions to Dismiss in Federal Court After "Shady
Grove", 63 DUKE L.J. 781, 788 (2013).
In practice, this dichotomy among circuits
impacts defendants differently, depending on where
the plaintiff files the claim. Even without applying a
state's anti-SLAPP statute, federal courts may still
resolve a case under a 12(b)(6) motion to dismiss. See
Abbas, 783 F.3d at 1339. However, in circuits that
apply state anti-SLAPP laws in federal diversity
Adelson v. Harris, 774 F.3d 803, 809 (2d Cir. 2014) (applying
Nevada's anti-SLAPP law), with In re Gawker Media LLC, 571
B.R. 612, 632-33 (Bankr. S.D.N.Y. 2017) (refusing to apply
California's anti-SLAPP law)

18
cases, federal courts can resolve cases more quickly,
saving litigants from unnecessary time and expense.
See, e.g., Gardner v. Martino, 563 F.3d 981 (9th Cir.
2009) (affirming dismissal of claims under a state
anti-SLAPP statute). Importantly, the application of a
state's anti-SLAPP statute will not deter meritorious
litigation. See, e.g., Godin v. Machiasport Sch. Dep't
Bd. of Dirs., 831 F. Supp. 2d 380, 387 (D. Me. 2011)
(denying anti-SLAPP and summary judgment motions
by defendants to resolve issues of fact).
Because of the variability in application of antiSLAPP laws, cases involving similar legal and factual
issues may place different burdens on defendants
solely by virtue of jurisdiction. In 3M Co. v. Boulter—
a case originating in the District of Columbia—the
plaintiff alleged the defendants engaged in a
"defamatory media blitz" concerning one of its
products. 842 F. Supp. 2d 85, 90 (D.D.C. 2012). The
defendants' special motions to dismiss were denied
because the court held the anti-SLAPP statute did not
apply in federal diversity cases. Id. at 111. In Gardner
v. Martino—a case originating in Oregon—the
defendant aired her grievances about a product on a
radio talk show. 563 F.3d at 982 (9th Cir. 2013).
Similar to 3M Co., Gardner involved the broadcasting
of negative comments about a company's product. Id.
at 983-84. However, Gardner held a state's antiSLAPP statute will apply in federal diversity cases.
Id. at 991. The two cases hinged on the same issue:
should a federal court sitting in diversity apply the
anti-SLAPP statute of the state in which it sits?
Oregon and the District of Columbia have similar antiSLAPP statutes that allow a defendant to file a

19
"special motion to dismiss," which sets forth a
particularized framework to evaluate statements
concerning "issues . . . of public interest." D.C. Code §
16-5502; Or. Rev. Stat. § 31.150(2). Nevertheless, the
rights available to the defendants pivoted primarily on
jurisdiction: the Gardner defendant could invoke state
law to quickly seek dismissal of the plaintiffs claims;
the 3M defendants could not. This stark contrast
illustrates the practical implications of the circuit
split.
B. Failure to apply state anti-SLAPP laws
in federal court promotes forum
shopping and the inequitable
administration of laws in violation of
Erie's aims.
The division among circuits promotes forum
shopping. When certain federal courts decline to apply
state anti-SLAPP statutes, plaintiffs can gain a
strategic advantage by filing their claims in those
courts. This issue can arise both across circuits
(horizontal forum shopping) and more pervasively
between state and federal courts within the same state
(vertical forum shopping).
Plaintiffs can avoid their own state's antiSLAPP statutes by choosing to litigate in federal
courts in other jurisdictions. According to the
Sacramento Bee, Representative Devin Nunes of
California has filed multiple lawsuits against news
organizations, including a defamation lawsuit against
Esquire he filed in the Northern District of Iowa. Kate
Irby, Devin Nunes' Lawsuit over Iowa Farm Story

20

Called a 'Fishing Expedition' by Esquire Magazine,
THE SACRAMENTO BEE (Apr. 24, 2020, 4:51 PM),
https://tinyurl.com/y6u4ft2a. None of these lawsuits
were filed in either state or federal courts in Nunes'
home state of California. Id. While Iowa does not have
an anti-SLAPP statute, California has one of the
strongest anti-SLAPP laws in the nation. See Cal. Civ.
Proc. Code § 425.16(a); Richardson, supra at 255.
The same issue arises across state and federal
courts of the same state or territory. As highlighted in
Abbas, federal courts in the District of Columbia
sitting in diversity do not apply the jurisdiction's antiSLAPP statute. Compare Abbas, 78 F.3d at 1333
(declining application of D.C. anti-SLAPP law) with
Doe No. 1 v. Burke, 91 A.3d 1031, 1045 (D.C. App.
2014) (applying D.C. anti- SLAPP law). Although
Abbas and Burke involved similar circumstances—
alleged defamatory statements
made available
online—possible early dismissal was only available
under the District of Columbia's anti-SLAPP law in
Burke because the case was filed in the D.C. Superior
Court. Burke, 91 A.3d at 1045.
Thus, when federal courts decline to apply state
anti-SLAPP laws, plaintiffs can avoid such laws
through vertical forum shopping. For example, in
Carbone—a case brought in the Northern District of
Georgia—the plaintiff could have chosen to file in a
variety of venues, including state courts in Florida and
Georgia, which both have anti-SLAPP laws. See
Carbone v. Cable News Network, Inc., No. 1:16-cv1720-ODE, 2017 U.S. Dist. LEXIS 216286, at *2—*4
(N.D. Ga. Feb. 14, 2017), aff'd in part, dismissed in

21
part, 910 F.3d 1345 (11th Cir. 2018). If the case had
been filed in a Florida or Georgia state court, early
dismissal could have been considered under either
states' anti-SLAPP statutes. See Fla. Stat. § 768.295;
Ga. Code Ann. § 9-11-11.1. However, the Eleventh
Circuit declined to apply state anti-SLAPP laws,
which opens the door for plaintiffs to file strategically
in federal court. See Carbone, 910 F. 3d. at 1357.
Unless this Court addresses the issue of
whether state anti-SLAPP statutes apply in federal
courts, such an anomalous result will promote forum
shopping in states like Texas as well. The Texas
legislature, along with the legislatures of over thirty
other states, the District of Columbia, and the
territory of Guam, has determined that plaintiffs
should not be able to burden defendants with
meritless lawsuits. States have made legislative
choices to deter these lawsuits, which federal courts
should honor. If federal courts do not apply state antiSLAPP statutes, plaintiffs can create additional
burdens on defendants by strategically filing claims in
federal courts. The ability of plaintiffs to forum shop
leads to the inequitable administration of laws and
affects the substantive rights of defendants. See
Hanna, 380 U.S. at 468. Thus, state anti-SLAPP
statutes should be applied in federal diversity cases.

22
C. Failure to resolve the circuit split
erodes First Amendment rights and
harms
media
organizations
nationwide.
Leaving the circuit split unresolved will erode
anti-SLAPP laws across the nation. Well-resourced
plaintiffs—whose primary motivations are to deter
speech—can file lawsuits in federal courts in circuits
that do not apply anti-SLAPP laws in order to
circumvent state laws and exhaust defendants'
financial resources. See Katelyn E. Saner, Getting
Slapp-Ed In Federal Court: Applying State Anti-Slapp
Special Motions to Dismiss in Federal Court After
"Shady Grove", 63 DUKE L.J. 781, 790 n.60 (2013).
Such plaintiffs gain a windfall by side-stepping the
proper showing intended by the legislature of the state
in which they filed. Moreover, plaintiffs' ability to shop
for forums that decline to afford anti-SLAPP
protection will undermine state anti-SLAPP statutes
throughout the nation, causing media organizations to
fear exercising the full extent of their First
Amendment rights. This reality has a
disproportionate effect on local media organizations,
which creates a significant risk of driving them out of
business due to legal costs. See, e.g., Small Newspaper
in Iowa Wins a Libel Suit, but Legal Costs May Force
It to Close, FIRST AMEND. WATCH (Oct. 10, 2019),
https://tinyurl.com/yc6waqjn.
Constraining media through burdensome
lawsuits harms the public in two main ways. First,
public participation and uninhibited debate is
foundational to democracy. See Garrison v. Louisiana,

23
379 U.S. 64,74-75 (1964) ("[S]peech concerning public
affairs is more than self-expression; it is the essence of
self-government."). At a level of societal justice,
activism by media organizations plays a key role in
public discourse. As evidence of the importance of
media organizations, the Department of Homeland
Security designated "[w]orkers who support radio,
print, internet and television news and media
services" as essential workers during the COVID-19
pandemic. U.S. Dep't Homeland Security, Advisory
Memorandum on Identification of Essential Critical
Infrastructure Workers During COVID-19 Response
(Mar. 28, 2020).
Second, local media organizations play an
invaluable role in educating and informing the
populace. A critical link exists between access to
information and civic engagement in local
communities. Julie Bosman, How the Collapse of Local
News Is Causing a 'National Crisis, N.Y. TIMES (Nov.
20, 2019, 12:13 PM), https://tinyurl.com/rfpcmhw. A
study of three different metro areas showed "nearly
nine-in-ten residents follow local news closely—and
about half do so very closely." Local News in a Digital
PEW RES. CTR. (Mar. 5, 2015),
Age,
https://tinyurl.com/yazwrbeg. In addition, the position
of media organizations in society is by no means
secure. Over 65 million Americans live in counties
with fewer than two local newspapers, with many not
having a local paper at all. Clara Henrickson, Local
Journalism in Crisis: Why America Must Revive its
Local Newsrooms, BROOKINGS INST. (Nov. 12, 2019),
https://tinyurl.com/y8nmlcax. In these counties, a
single SLAPP lawsuit could eliminate the only local

24
media organization for that community, creating an
information desert.
Scholars note that "[d]ebate on public issues is
distorted when one side is afraid to speak, or when one
side is able to shift the efforts of its opponents away
from public issues toward private self-defense."
Braun, supra, at 972. Media organizations play a key
role in political accountability. Timothy Besley et al.,
Mass Media and Political Accountability, in THE
RIGHT TO TELL 45 (Roumeen Islam et al. eds., 2002).
"This intimidation, and the personal cost and psychic
trauma to victims of the SLAPP technique . . . deters
citizens from public service and participation in
government and public debate." Braun, supra, at 972.
Therefore, this Court should resolve the circuit split
and determine that state anti-SLAPP statutes apply
in federal court.
CONCLUSION
For the foregoing reasons, the petition for writ
of certiorari should be granted.

Respectfully Submitted,
THOMAS C. ARTHUR
Counsel of Record
EMORY LAW SCHOOL SUPREME
COURT ADVOCACY PROGRAM
1301 Clifton Road
Atlanta, GA 30322
Counsel for Amici Curiae

25
ADDITIONAL COUNSEL FOR AMICI
CURIAE
D. Victoria Baranetsky
General Counsel
Reveal from The Center for
Investigative Reporting
1400 65th Street, Suite 200
Emeryville, California 94608
Jason P. Conti
Jacob P. Goldstein
Counsel
Dow Jones & Company, Inc.
1211 Avenue of the Americas
New York, NY 10036
David M. Giles
Vice President/Deputy General
Counsel
The E.W. Scripps Company
312 Walnut St., Suite 2800
Cincinnati, OH 45202
David Snyder
Counsel
First Amendment Coalition
534 Fourth St., Suite B
San Rafael, CA 94901

26
David M. Keneipp
Counsel
Fox Television Stations,
LLC
1999 S. Bundy Drive
Los Angeles, CA 90025
David E. Hudson
Hull Barrett, P.C.
801 Broad Street, 7th Floor
Augusta, GA 30901
Counsel for The Georgia
Press Association
Max Kautsch
810 Pennsylvania Street, Ste. 207
Lawrence, KS 66044
Counsel for The Kansas
Association of Broadcasters
Tonda F. Rush
General Counsel
CNLC, LLC
Arlington, VA 22207
Counsel for National Newspaper
Association
Mickey H. Osterreicher
1100 M&T Center, 3
Fountain Plaza
Buffalo, NY 14203
Counsel for National Press
Photographers Association

27

Danielle Coffey
Senior Vice President &
General Counsel
News Media Alliance
4401 N. Fairfax Dr.,
Suite 300
Arlington, VA 22203
Elizabeth Ryder
Executive Vice President &
General Counsel
Nexstar Media Group, Inc.
454 E John Carpenter
Freeway, Suite 700
Irving, TX 75062
Kathleen A. Kirby
Wiley Wein, LLP
1776 K Street NW
Washington, DC 20006
Counsel for The Radio Television
Digital News Association
David Gibber, Senior Vice
President and General Counsel
Chase Bales, Legal Counsel
Sinclair Broadcast Group, Inc.
10706 Beaver Dam Road
Hunt Valley, MD 21030

